U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


          NATIONAL OCEANIC AND
    ATMOSPHERIC ADMINISTRATION

OAR Needs Additional Management Systems
       to Meet the Intent of the Results Act

       Audit Report No. STL-8519-8-0001 / September 1998




                   Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                                  Report No. STL-8519-8-0001
Office of Inspector General                                                                              September 1998

                                                TABLE OF CONTENTS



                                                                                                                                Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

I.   STRATEGIC PLANNING PROCESS NEEDED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

      Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

II. BUDGETING AND PLANNING LINKAGE NEEDED . . . . . . . . . . . . . . . . . . . . . . . . . . 6

      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

III. MANAGEMENT INFORMATION SYSTEM NEEDED . . . . . . . . . . . . . . . . . . . . . . . . . . 7

      Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

      Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

      OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

APPENDIXES:

          I         INTEGRATED OAR STRATEGIC PLANNING,
                    BUDGETING, AND TRACKING SYSTEM

          II        SUGGESTED MANAGEMENT INFORMATION SYSTEM TO SUPPORT
                    STRATEGIC PLANNING, BUDGETING, AND TRACKING SYSTEM

           III      NOAA’S RESPONSE TO DRAFT REPORT
U.S. Department of Commerce                                          Report No. STL-8519-8-0001
Office of Inspector General                                                      September 1998

                                  EXECUTIVE SUMMARY

The Office of Oceanic and Atmospheric Research (OAR) is the research agency of the National
Oceanic and Atmospheric Administration. OAR conducts and directs research programs in
coastal, marine, and atmospheric sciences through (1) its own laboratories and offices; (2)
networks of university-based programs throughout the country, and (3) various international
activities. OAR has three major components: Environmental Research Laboratories, the National
Sea Grant College Program, and the National Undersea Research Program. NOAA plans to
transfer the Office of Global Programs from the National Ocean Service to OAR within the next
year.

We reviewed OAR’s current managerial organization. Our objective was to determine if OAR’s
current systems and processes can meet the intent of the Government Performance and Results
Act of 1993 (Results Act). We identified three areas where the current structure is inadequate,
and have developed detailed guidelines as to how OAR can implement the necessary systems and
processes. Specifically:

l      OAR does not have a strategic plan to clarify its mission, goals, and objectives; to formally
       communicate agency priorities to the field level; and to use as a basis for preparing
       resource allocation plans. OAR has initiated several attempts to create a strategic plan,
       but these efforts have failed because formal strategic planning has not been an OAR
       priority. Sound management practices, as embodied in the Results Act, require that
       agencies use a strategic planning process. (See page 4.)

l      OAR needs to integrate its budgeting process with a strategic planning process.
       Integrating these processes will allow OAR to comprehensively analyze its planning goals
       and funding needs, and present a clearer picture of its operations to those outside the
       organization. Because there has been no strategic plan to which OAR could link its
       budgeting process, OAR presently develop its budget in response to the NOAA planning
       and budget process. A comprehensive and integrated OAR approach to planning and
       budgeting will provide a more complete description of how OAR’s goals and objectives
       are to be achieved, and how OAR can satisfy the intent of the Results Act. (See page 6.)

l      OAR lacks a unified management information system to evaluate project performance.
       Such a system is necessary to allow managers to more effectively define and communicate
       project objectives, report on progress, and track the expenditure of resources. (See page
       7.)




                                                 i
U.S. Department of Commerce                                         Report No. STL-8519-8-0001
Office of Inspector General                                                     September 1998

We recommend that the Assistant Administrator for Oceanic and Atmospheric Research:

l      Institute policies and procedures to create and implement a strategic planning process that
       meets the intent of the Government Performance and Results Act. OAR’s strategic
       planning should be consistent with and complementary to NOAA’s and the Department’s
       strategic plans

l      Ensure that the OAR budgeting process is integrated with the new OAR strategic planning
       process.

l      Develop a unified OAR-wide management information system that can be linked to
       strategic planning and can provide the performance information required under applicable
       Results Act guidelines. The system should meet the following criteria:
       (1) establish and communicate objectives and milestones; (2) track performance; and
       (3) establish accountability for performance and resources allocated.

In response to the draft audit report, NOAA concurred with our recommendations. NOAA plans
to integrate the budgeting and strategic planning processes. NOAA agrees that OAR should
improve systems to track performance results and resource allocation. NOAA plans to implement
our recommendations through the Strategic Plan Reporting System currently implemented in the
NOAA resource system (FIMA); through improved crosswalks between the NOAA strategic
planning structures and OAR’s current program structure; and through better strategic plan
linkages in the budget development process.

We agree with NOAA’s planned course of action.




                                                ii
U.S. Department of Commerce                                            Report No. STL-8519-8-0001
Office of Inspector General                                                        September 1998

                                         INTRODUCTION

The Office of Oceanic and Atmospheric Research (OAR) is the organization responsible for much
of the scientific research in support of NOAA’s missions. OAR provides the short-term research
needed to improve existing NOAA products and services, and the longer-term research and
development needed to create new products and services as needs, knowledge, and technologies
change.

OAR, headquartered in Silver Spring, Maryland, has an annual operating budget of approximately
$277 million and about 900 employees. It coordinates a national network of federal laboratories
and university-based programs. OAR currently has three components: the Environmental
Research Laboratories (ERL), the National Sea Grant College Program, and the National
Undersea Research Program (NURP). NOAA has also begun to transfer the Office of Global
Programs (OGP) from the National Ocean Service to OAR.

OAR provides national and international leadership on critical environmental issues. It addresses
much of the environmental research and development needs not only of NOAA, but also of the
Department of Commerce, other federal agencies, states and industry.

ENVIRONMENTAL RESEARCH LABORATORIES
AND JOINT INSTITUTES

The ERL system consists of a headquarters office in Silver Spring, 12 federal research
laboratories, and 10 Joint Institutes. The institutes are the academic institutions that participate in
ERL research activities. The federal laboratories and academic institutes form research centers
designed to study the atmosphere, oceans, and land surfaces, as well as their interconnections;
coastal and inland aquatic environments; air quality and associated ecosystem processes; and the
solar-terrestrial environment.

SEA GRANT

The National Sea Grant College Program was established to enhance the development, use, and
conservation of the nation’s marine and Great Lakes resources. The program was established as a
network of Sea Grant Colleges to conduct education, training, and research in all fields of marine
study. Sea Grant was also directed to distribute grants and contracts to public and private
institutions that work to develop marine resources.




                                                   1
U.S. Department of Commerce                                         Report No. STL-8519-8-0001
Office of Inspector General                                                     September 1998

There are 29 Sea Grant College programs in the coastal and Great Lakes states, plus Puerto Rico.
These programs form the core of a national network of scientists, engineers, educators, students,
and outreach specialists devoted to accomplishing research and outreach objectives.

Sea Grant supports marine and coastal resource research of immediate public importance and
application. It provides a major source of support for applied marine science research, including
coastal and ocean engineering and management, fisheries and aquaculture, and marine-related
social sciences and law. One-third of Sea Grant’s funds are to be matched by state or local
governments, industry, or other sources.

NATIONAL UNDERSEA RESEARCH PROGRAM

NURP conducts research via submersibles, underwater laboratories, remotely operated vehicles
and observatories, and diving. The program is composed of a headquarters office and six NOAA-
funded National Undersea Research Centers. Under an agreement with the Navy, NURP serves
as the research manager for civilian use of U.S. Navy deep submergence vehicles. NURP also
represents NOAA in supporting, along with the National Science Foundation and the Office of
Naval Research, civilian use of a deep submergence vehicle operated by the Woods Hole
Oceanographic Institution. NURP acquires otherwise unobtainable observations, samples, and
experiments related to NOAA research goals. It also gives the U.S. research community access
to civilian, military, and international undersea technology.

OFFICE OF GLOBAL PROGRAMS

OGP conducts the NOAA Climate and Global Change Program, which assists in carrying out
NOAA’s responsibility to routinely provide climate forecasts and products to the nation. OGP
guides NOAA’s efforts to coordinate a multinational initiative to establish an International
Research Institute.




                                                2
U.S. Department of Commerce                                         Report No. STL-8519-8-0001
Office of Inspector General                                                     September 1998

                             PURPOSE AND SCOPE OF AUDIT

The purpose of our audit was to determine whether OAR’s current management systems can meet
the intent of the Government Performance and Results Act of 1993, P.L. 103-62. Our work
focused on integrated planning, budgeting, and tracking systems. We initiated our review in June
1996. Other priorities resulted in our suspending work several times. Our fieldwork, conducted
primarily at OAR headquarters in Silver Spring, MD, was completed in March 1998.

We reviewed OAR’s administrative controls related to research management. We focused on the
policies and procedures related to research selection, prioritization, tracking, and reporting of
accomplishments. We interviewed OAR senior and mid-level managers who were knowledge-
able of the systems and procedures in place. Our analysis found that some of OAR’s controls
were not adequately designed or implemented, as discussed in the following sections.

Our review did not rely on data generated by OAR’s computer systems.

This review was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                3
U.S. Department of Commerce                                          Report No. STL-8519-8-0001
Office of Inspector General                                                      September 1998

                          FINDINGS AND RECOMMENDATIONS

We identified three areas where OAR’s current management processes and systems need
improvement in order to meet the requirements of the Results Act. Those processes and systems
are less than optimal because of inadequate strategic planning, a budget process that is not
integrated with planning, and the lack of a unified OAR-wide management information system.
Each of these elements will have to be improved before OAR can satisfy the intent of the
Government Performance and Results Act.

I.      STRATEGIC PLANNING PROCESS NEEDED

OAR does not have a strategic plan to (1) clarify its mission, goals, and objectives; (2) formally
communicate agency priorities to the field; and (3) use as a basis for preparing resource allocation
plans. OAR has initiated attempts to create a strategic plan, but these efforts have faltered
because formal strategic planning has not been an OAR priority. Sound management practices, as
embodied in the Results Act, require that agencies use a strategic planning process.
Strategic planning is beneficial to an organization in the clarification of future direction,
establishment of priorities, and development of a basis for decision making.

The Results Act requires federal agencies to have a strategic plan to ensure efficiency and
effectiveness throughout the organization. Under the Act, a strategic plan should:

l      include a comprehensive mission statement covering the agency’s major functions and
       operations;

l      set forth general goals and objectives, including outcome-related goals and objectives, for
       the agency’s major functions and operations;

l      describe how the goals and objectives are to be achieved, including the operational
       processes, skills and technology, and human, capital, information and other resources
       required to meet them;

l      describe how the performance goals included in the agency’s performance plan relate to
       the general goals and objectives in the strategic plan;

l      identify the key factors beyond the agency’s control that could significantly affect the
       achievement of the general goals and objectives;




                                                 4
U.S. Department of Commerce                                           Report No. STL-8519-8-0001
Office of Inspector General                                                       September 1998

l      describe the program evaluations used in establishing or revising the general
       goals and objectives, with a schedule for future program evaluations; and

l      cover a period of at least five years, and be updated at least every three years.

Lacking its own strategic plan, OAR has tied its planning to NOAA’s strategic plan. However,
NOAA’s strategic planning entails broad categories appropriate for the large agency. Unique
aspects of OAR’s mission cannot be adequately addressed within these broad categories. In
addition, many of OAR’s research initiatives cut across NOAA’s strategic planning categories,
making it even more problematic for OAR to use NOAA’s plan as its own. An OAR strategic
plan would demonstrate how OAR activities and initiatives support the mission of the line office,
NOAA, and the Department.

OAR has made several attempts at strategic planning, but past efforts have not been completely
successful. OAR’s Program Development and Coordination Group initiated another attempt at
developing an OAR strategic plan in February 1998. Progress on this effort has been slow.

Recommendation

We recommend that the Assistant Administrator for Oceanic and Atmospheric Research:

l      institute policies and procedures to create and implement a strategic planning process that
       meets the requirements of the Government Performance and Results Act. OAR’s strategic
       planning should be consistent with and complementary to NOAA’s and the Department’s
       strategic plans.




                                                 5
U.S. Department of Commerce                                          Report No. STL-8519-8-0001
Office of Inspector General                                                      September 1998

II.    BUDGETING AND PLANNING LINKAGE NEEDED

OAR needs to link its budgeting process with the proposed strategic planning process.
Integrating these processes will allow the agency to comprehensively analyze its planning goals
and funding needs, and to present a clearer picture of its operations to those outside the
organization. Because there has been no strategic plan to which OAR could link its budgeting
process, OAR presently develops its budget in response to the NOAA planning and budget
process. Sound management practices, and the Results Act, necessitate a comprehensive and
integrated approach to planning and budgeting. Integrating the OAR strategic plan and the OAR
budgeting process will provide a more complete description of how OAR’s goals and objectives
are to be achieved, and how OAR can satisfy the intent of the Results Act.

OAR senior managers noted that because OAR does not have a strategic plan, it has shaped its
budget in the context of the NOAA planning and budgeting process. However, many of OAR’s
research initiatives do not fit easily into the NOAA strategic planning categories. Consequently, it
has been difficult for OAR to clearly articulate its research efforts and funding needs to NOAA.
Creating a process within OAR to coordinate planning goals and funding needs prior to
participating in the NOAA process would enable OAR to present a clearer, more coherent picture
of OAR requirements.

Recommendation

We recommend that the Assistant Administrator for Oceanic and Atmospheric Research:

l      Ensure that the OAR budgeting process is integrated with the new OAR strategic planning
       process.




                                                 6
U.S. Department of Commerce                                           Report No. STL-8519-8-0001
Office of Inspector General                                                       September 1998

III.   MANAGEMENT INFORMATION SYSTEM NEEDED

OAR does not have a unified, OAR-wide information system to establish milestones for research,
report on progress, and track the expenditure of resources. Individual components within OAR
have developed a variety of databases to document historical project information. The databases
consist mainly of lists of projects and grants and information about prior fiscal years. However,
the systems have been developed independently without overall OAR management guidance,
resulting in management systems that track different degrees of information, and lack
standardization. In addition, none of the systems document and track expected accomplishments
and how allocated resources will be utilized in the near future.

The Results Act directs federal agencies to establish effective performance measurement systems.
No later than March 31, 2000, government agencies must report to OMB and the Congress on
their fiscal year 1999 performance. The Act requires detailed performance reports. For its part,
OAR must be able to track and report on its progress in establishing performance goals for each
program, expressing those goals in objective, quantifiable, and measurable form,
describing the resources and activities needed to meet the goals, establishing performance
indicators, establishing a basis for comparing results with goals, and providing for alternatives to
objective and quantifiable formats.

In line with sound management practices, research organizations such as OAR should also
develop and implement a management information system. The system should be linked to
strategic planning efforts and provide the necessary information to report OAR performance
results. Appendix II includes additional information to assist OAR in developing an effective
management information system.

Recommendation

We recommend that the Assistant Administrator for Oceanic and Atmospheric Research:

l      Develop a unified OAR-wide management information system that is linked to strategic
       planning and can provide the performance information required under applicable Results
       Act guidelines. The system should meet the following criteria: (1) establish and
       communicate objectives and milestones; (2) track performance; and (3) establish
       accountability for performance and resources allocated.




                                                 7
U.S. Department of Commerce                                      Report No. STL-8519-8-0001
Office of Inspector General                                                  September 1998

Agency Response

In response to the draft audit report, NOAA concurred with our recommendations. NOAA plans
to integrate the budgeting and strategic planning processes. NOAA agrees that OAR should
improve systems to track performance results and resource allocation. NOAA plans to implement
our recommendations through the Strategic Plan Reporting System currently implemented in the
NOAA resource system (FIMA); through improved crosswalks between the NOAA strategic
planning structures and OAR’s current program structure; and through better strategic plan
linkages in the budget development process.

OIG Comments

We agree with NOAA’s planned course of action.




                                              8
U.S. Department of Commerce                                          Report No. STL-8519-8-0001
Office of Inspector General                                                      September 1998
                                                                                   APPENDIX I
                                                                                     Page 1 of 6

                        INTEGRATED OAR STRATEGIC PLANNING,
                          BUDGETING, AND TRACKING SYSTEM

Appendix A discusses a proposed integrated strategic planning, budgeting, and tracking system
for OAR. Our example, based upon sound management practices, is provided as an aid for OAR
in designing its own processes.

The Army Research Laboratory Project

The Army Research Laboratory (ARL) recently completed a Results Act pilot project for
performance measurement. OMB designated ARL as the only working research and development
laboratory to be included in the Results Act pilot process. As the organization responsible for
scientific research in support of NOAA’s missions, OAR might find the results of the ARL study
helpful as OAR and NOAA move to meet the intent of the Results Act. In a summary report on
the past study, ARL discussed three elements that it found useful for evaluating different aspects
of a research program.

Peer Review

Contemporary or retrospective peer review is a generally accepted approach to performance
evaluation throughout the world of science and technology. Ideally, a panel of recognized experts
in a scientific field is well-equipped to make judgments on the technical quality of the programs,
the qualifications of the technical staff, and the adequacy of the facilities and equipment.
However, peer reviews is limited by the breadth, depth, and independence of the reviewers.
Moreover, peer review specifically responds to the area of quality and, to a more limited extent,
productivity, but it not expected to speak to the issue of relevance with great specificity.

Metrics

The ARL project termed things that are “countable” in the world of research and development as
metrics. Metrics can provide additional information regarding an organization, specifically as
indicators of its functional health. Metrics are judged to be necessary in any evaluation process.
However, it is imperative that metrics not be taken out of context or overemphasized.
U.S. Department of Commerce                                           Report No. STL-8519-8-0001
Office of Inspector General                                                       September 1998
                                                                                    APPENDIX I
                                                                                      Page 2 of 6

ARL’s research into metrics identified 59 different quantities, 15 of which are tracked by the
Director’s staff and reported to the Director for use as a management tool. Some examples are as
follows: the percentage of the 10 most important research tasks completed annually within each
directorate, the number of technical reports, the percentage of doctorate degrees among the
scientist and engineer portion of the workforce, and the number of significant awards received
(from national or international bodies).1

Customer Feedback

The third element applies the concept of a customer to the research effort. While this is a familiar
concept in the world of development and production, it is somewhat foreign to the world of
research. This concept is based on the premise that if a laboratory is being paid for work,
research or otherwise, the payer presumably expects a product. The payer (NOAA, other
governmental agencies, nonprofit organizations, or the general public) can be viewed the
customer. ERL has prepared a draft plan designed to recognize and obtain feedback from a
targeted customer base.

Possible Management Processes for OAR

The elements noted in the ARL project can be integrated into a concept called the “balanced
scorecard”2. The balanced scorecard is a strategic management system many companies have
adopted to improve their performance measurement systems. Our example is provided as an aid
to OAR in designing its process to meet specific Results Act guidelines. The scorecard shown
compares financial targets to actual results, compares research targets to results, and tracks
performance among OAR’s three current components (ERL, NURP, and Sea Grant). The
process assists in integrating the budgeting process with the strategic planning process.

The scorecard should be used individually by the three OAR components. The results would then
be collected by OAR and compiled into a master agencywide scorecard on a weighted average
scale. Using a scale would ensure a valid comparison, as the components’ percentage of the
overall score would correspond to their share of OAR’s overall budget. The scorecard would
give OAR senior management an evaluation technique intended to measure the progress of
research and the financial condition of its various components. The scorecard would also let
OAR introduce the following four management processes that, separately and in combination,
contribute to linking long-term strategic objectives with short-term actions.


       1
        Dr. Edward A. Brown, Applying the Principles of the Government Performance and
Results Act to the Research and Development Function (1996).
       2
      Kaplan R. and Norton D. (1997) “Using the Balanced Scorecard as a Strategic
Management System,” Harvard Business Review, pp. 35-47.
U.S. Department of Commerce                                                   Report No. STL-8519-8-0001
Office of Inspector General                                                               September 1998
                                                                                            APPENDIX I
                                                                                              Page 3 of 6


                                       DIAGRAM A
                            Managing OAR Strategy: Four Processes


                                                Translating
                                                the Vision
                                                *     Clarifying the vision
                                                *     Gaining consensus
       Communicating                                                                  Feedback
         and Linking                                                                and Learning
       *    Communicating                       Balanced                           *   Articulating the
           and educating                        Scorecard                              shared vision
       *    Setting goals                                                          *   Supplying goals
       *    Linking rewards to                                                     *   Facilitating strategy
       *    Performance measures                                                       review and learning
                                            Business
                                            Planning
                                            *       Setting targets
                                            *       Aligning initiatives
                                            *       Establishing milestones




LEGEND:

Translating the vision helps OAR managers build a consensus view of the organization’s vision
and strategy. Despite the best intentions of those at the top, lofty statements about becoming
“world class,” “centers of research excellence,” or “international leadership” do not translate
easily into operational terms that provide useful guides to action at lower organizational levels..
For people to act on vision and strategy statements, those statements must be expressed as an
integrated set of objectives and measures, agreed upon by all senior management teams, that
describe the long-term determinants of success.
U.S. Department of Commerce                                          Report No. STL-8519-8-0001
Office of Inspector General                                                      September 1998
                                                                                   APPENDIX I
                                                                                     Page 4 of 6

Communicating and linking lets OAR mangers communicate their strategy up and down the
organization and link it to departmental and individual objectives. Traditionally, departments are
evaluated by their financial performance, and individual incentives are tied to short-term financial
goals. The scorecard gives managers a way of ensuring that all levels of the organization
understand the long-term strategy and that both departmental and individual objectives are aligned
with it.

Business planning enables OAR to integrate its business and financial plans. Almost all
organizations today are implementing a variety of change programs, each with its own
consultants, think tanks, and investigation groups, and each competing for the time, energy, and
resources of senior managers. Managers find it difficult to integrate those diverse initiatives to
achieve their strategic goals--a situation that leads to frequent disappointments with the programs’
results. If OAR uses the goals set for balanced scorecard measures as the basis for allocating
resources and setting priorities, it can better undertake and coordinate only those initiatives that
move toward its and NOAA’s long-term strategic objectives.

Feedback and learning assists OAR with strategic learning. Existing feedback and review
processes focus on whether OAR, its components, or its individual employees have met their
budgeted financial goals. With the balanced scorecard at the center of its management systems,
OAR can monitor short-term results from the three additional perspectives--customers, internal
research processes, and learning and growth--and evaluate future strategy in the light of recent
performance. The scorecard can thus enable OAR to modify strategies to reflect real-time
learning.
U.S. Department of Commerce                                                    Report No. STL-8519-8-0001
Office of Inspector General                                                                September 1998
                                                                                             APPENDIX I
                                                                                               Page 5 of 6


The Balanced Scorecard

This diagram illustrates how performance measures are qualified in a “balanced scorecard,” and
how actual results are measured against targeted goals.
__________________________________________________________________

                    A                                   B                                C
           OAR-HQ Targets                      Scorecard Measures                   OAR Results
 1     '96   '97    '98           '99                                         96     '97   '98     '99
                                                 Research: OAR
 2      7        8       9        10           Peer Review Results             5     7
 3     65%      70%     75%       80%                Metrics                  45%    50%
 4      8        8       8        10           Customer Feedback               4     6
                                                 Financial: OAR
 5        increase by 4% yearly                Overall Budget (in m$)
 6        decreases by 2% yearly         Overhead and operating expenses
 7        increase by 2% yearly         New budget allotments for research
                                             Individual Measures
                                                 Research: NURP
 8      7        8       9        10           Peer Review Results             5     7
 9     65%      70%     75%       80%             Metrics                     45%    50%
 10     8        8       8        10            Customer Feedback              4     6
                                                 Financial: NURP
 11        increase by 4% yearly           Overall Budget (in m$)
 12       decreases by 2% yearly         Overhead and operating expenses
 13        increase by 2% yearly        New budget allotments for research

__________________________________________________________________
Legend:

       I. Column B lists OAR’s scorecard measurements:
                 A. Rows 2-4 contain the research performance measurements used in the ARL study.
                 B. Rows 5-7 contain the financial targets. In this example, they have been based on the
                 Harvard Business Review article mentioned on page 2 of this appendix. They would normally be
                 qualified by OAR during the strategic planning phase.
                 C. Rows 8-13 display the individual financial and research performance measurements of
                 NURP. The category would be extended to also include ERL and Sea Grant.
       II. Column A lists yearly performance targets, in objective form, to the related research and
       financial measurement. OAR would devise a plan to set these targets during the strategic planning
       process. The row is read left to right.
                 A. Rows 2-4 list research performance targets; they are in quantifiable form. Peer review results
                 and customer feedback are provided on a scale of 1 to 10. The metric performance target is
                 measured on a 0-100% basis.
U.S. Department of Commerce                                                 Report No. STL-8519-8-0001
Office of Inspector General                                                             September 1998
                                                                                          APPENDIX I
                                                                                            Page 6 of 6
              B. Rows 5-7 list financial performance measurement targets, which represent the projected
              increase or decrease to the related financial measurement.
              C. Rows 8-13 list the individual research and financial measurement targets of NURP. The
              category would be extended to also include ERL and Sea Grant.

      III. Column C lists OAR’s research and financial results accordingly by year. The scores are
      read left to right.
              A. Rows 2-4 list research performance results; they are in quantifiable form. Peer review results
              and customer feedback are listed on a scale of 1 to 10. The metric performance target is measured
              on a 0-100% basis.
              B. Rows 5-7 list financial performance results. They represent the actual increase or decrease in
              the related financial measurement.
              C. Rows 8-13 list the individual research and financial measurement results of NURP. The
              category would be extended to also include ERL and Sea Grant.

      IV. Examples:
             Question: What was OAR’s targeted and actual peer review scores for 1996?
             Answer: The targeted score was 7 (column A, row 2), and the actual score was 5
             (column C, row 2).

              Question: What was NURP’s targeted and actual customer feedback scores for 1997?
              Answer: The targeted score was 8 (column A, row 10), and the actual score was 6
              (column C, row 10).
U.S. Department of Commerce                                            Report No. STL-8519-8-0001
Office of Inspector General                                                        September 1998
                                                                                    APPENDIX II
                                                                                     Page 1 of 4

          SUGGESTED MANAGEMENT INFORMATION SYSTEM TO SUPPORT
           STRATEGIC PLANNING, BUDGETING, AND TRACKING SYSTEM

As discussed in the report, OAR needs to develop an information system to complement and
support an integrated strategic planning, budgeting, and tracking system. The management
information system establishes a process for monitoring and evaluating projects. When properly
implemented, such a tracking system helps establish a research organization’s accountability and
credibility. The management information system described below can serve as an aid for OAR in
designing a system and is based upon sound management practices.

An effective, useful management information system is based on several premises. It should be
(1) simple to use and have up-to-date information; (2) formally and clearly document project
justifications, objectives, and financial information, and (3) clearly identify what is going to be
done and when. Given this information, the system can be used to measure performance of the
agency, science centers, researchers, and managers.

In addition to its performance evaluation characteristics, the management information system
should be used to facilitate communication between OAR’s three major components (ERL,
NURP, and Sea Grant). The system should be the mechanism in an integrated system that
provides a platform for planning, conducting, and evaluating projects. A system that formally
documents and clearly defines technical and financial objectives, and which measures the progress
of performance, will help create agency accountability and further enhance credibility.

The management information system should encompass three basic elements: A project fact
sheet, project milestones to establish goals, and a process to measure project performance. The
fact sheet summarizes the pertinent technical and financial information of a project. Milestones
are key tasks identified during the project planning process and listed on the fact sheet. Finally,
project performance is evaluated by reviewing planned objectives against actual performance.

Project Fact Sheet

The project fact sheet, the key control document of the project planning and tracking system, is a
succinct document that highlights only the most important technical and financial data. A fact
sheet should be required for every project. New fact sheets should be issued at the end of each
fiscal year, which coincides with the new planning and budgeting cycle.
U.S. Department of Commerce                                          Report No. STL-8519-8-0001
Office of Inspector General                                                      September 1998
                                                                                  APPENDIX II
                                                                                   Page 2 of 4

The fact sheet should be prepared and updated during the annual planning process. During this
process, the fact sheet should be reviewed concurrently by senior managers, research managers,
and resource managers to facilitate communication among these three groups. The review will
also allow all three groups to discuss project objectives and milestones, facilitate commitment
between research and operation divisions, and assist in allocating resources according to OAR’s
strategic plan.

The first section of the project fact sheet summarizes the technical objectives and how they will be
achieved. The section should provide a narrative description of the project’s (1) justification and
objectives, (2) methodology, (3) products and services, (4) customers.

The justification and objectives should describe why the project is necessary and specifically
address how it will meet the objectives of OAR’s and NOAA’s strategic goals. The methodology
narrative should briefly describe the process needed to achieve the objectives. The products and
services category should be a list of accomplishments expected from the project. Any products or
services produced should be listed as milestones in a later section. The customers category
should be a list of clients that will use the products. The customers listed should be involved in
planning the project.

The second section of the project fact sheet should be a quick-reference table that contains key
financial information, such as FTEs and dollars budgeted, and actual resources expended.
Preparation of this section will require budgeting managers to work closely with the strategic
planning committee.

The OAR management information system should include a form that can track all projects by
budgeted and actual expenditures by tasks and object classes. To accomplish this, OAR must
initiate a system that tracks actual labor dollars associated with individual projects. The system
would require ERL, NURP, and Sea Grant to maintain labor distribution records. Such a system
establishes accountability for how allocated resources are spent and complies with Results Act
requirements.

Milestones

The last section of the project fact sheet contains milestones, which detail the project plans
from initiation through completion. The milestones from the fact sheet should be used in the
project evaluation process.
U.S. Department of Commerce                                         Report No. STL-8519-8-0001
Office of Inspector General                                                     September 1998
                                                                                 APPENDIX II
                                                                                  Page 3 of 4

OAR should link the project fact sheet with an automated database; then, a milestone report
linked to the fact sheet could then be produced that will document the status of each milestone.
The database should be used regularly (perhaps monthly) to generate milestones due that period.
The milestone reports can be assessed during the project evaluation process.

Measuring Performance

The project milestones should also be used to evaluate and establish accountability. The
milestones can be used to evaluate individual researchers, managers, and science centers, and can
provide an overall evaluation of OAR. This approach would be a demonstrable effort in meeting
the intent of the Results Act.

Project milestones should be linked to the performance plans of the people responsible for
completing a particular milestone. The milestone from the project fact sheet should be included in
the performance plans of the researchers, project leaders, center directors, and other research
executives. Linking milestones to performance establishes accountability for achieving
milestones. Only critical milestones that are within each researcher’s or manager’s responsibility
and control should be included in the performance plans. Performance plans should be developed
during the ongoing strategic planning process and reviewed annually.

As an example, the milestones related to executing and conducting a specific project should be
linked to project leaders and individual researchers. Milestones related to project outcomes and
products should be linked to research managers and agency executives. This system provides a
basis to review planned performance against actual performance at the various organizational
levels.

An ultimate goal of a management information system is to increase the communication of
information between operating divisions and management, which ultimately establishes
accountability. Establishing objectives, milestones, and budgets facilitates communication and
helps prevent misunderstanding. Tracking milestones and linking them to performance plans helps
to evaluate project performance and establish accountability. With proper implementation, a
project tracking system establishes credibility and accountability for the entire agency.
The proposed system is illustrated schematically on the following page.
U.S. Department of Commerce                                              Report No. STL-8519-8-0001
Office of Inspector General                                                          September 1998
                                                                                      APPENDIX II
                                                                                       Page 4 of 4




                                Milestones & Performance
                                       Evaluation

__________________________________________________________________

       Project                                           Performance
      Fact Sheet                Work Plan                 Appraisal              Recognition




                                   OAR                                              Agency
                                Strategic Plan                                     Credibility


                               Center Director
      Milestones                                           Actual
                                                              vs.                   Actual
                                                           Planned                 Performance
                               Project Leader            Performance                Rating


                                Researcher



Performance against milestones ties to work plans, which in turn are linked to recognition and credibility
